CERTIFICATE OF SERVTflF.
for
SUPREME COURT OF THE UNITED STATES

20 -184
Jamel Ellerbee v Annett Holdings. Inc., d/b/a TMC Transnnrtatinn Pt a1
DOCUMENT: PETITION FOR REHEARING
Three true and correct copies of the forgoing document were served on all parties, by USPS
Priority Mail.
Dana Hoffinan & Matthew Burke of Young Moore and Henderson, P.A., Counsel
3101 Glenwood Ave Suite 200 Raleigh, NC 27612
Phone: 919.782.6860
For: Annett Holdings. Inc., d/b/a TMC Transportation. Marcv Nohle. Stevg T, in Her. Steven
Feldmann, Todd Bunting. Jordan Olsen. Niki Bailey. Chad VanderlinHen
William Z. Ross, General Counsel for Specialty Rolled Metals, LLC.
423 Saint Paul Blvd Carol Stream, IL 60188
Phone: 630.871.5765
P°r- Specialty Rolled Metals. LLC.. Mike Kiewert. Lorena Racerott. William Z. Ross
Jeffrey Wall, The Solicitor General of the United States
Department of Justice, 950 Pennsylvania Ave., N.W., Room 5616, Washington, D.C. 205300001
Phone: 202.514.2203

I declare under penalty of perjury that the foregoing is true and correct.

N]ov

Executed on,
ZOlO
By, Jamel Ellerbee.

